Fr

simmme (CQCKLE

Le ga l Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 contact@cocklelegalbriefs.com
Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No.

HAWAII MANAGEMENT ALLIANCE ASSOCIATION,
Petitioner,
Vv.
RANDY RUDEL,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 6671 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 10th day of December, 2019.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \
State of Nebraska . LE /
My Commission Expires Nov 24, 2020 e

Notary Public Affiant

 

 

39128
